CERTIFICATE OF COMPLIANCE
No..
Yao Pone,
Petitioner
V.
Board of County Commissioners for Calvert County.
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition for a
writ of certiorari contains
words, excluding the parts of petition that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Apu(

20

20=2_t

Date
Yao Pone
683 Gunsmoke Trl
Lusby, MD 20657
240-256-0203
Certification of Word Count and Compliance with Maryland rule 8-112.

